14

14
Second Circuit Courts are not required to even reply
to a lawful, with standing, request to review a clearly
unconstitutional law. Gangster Employers, like
NYCTA, will see this case as a green light to
Defraud, Assault, Defame, Injure any Employee for
any reason, with undeserved, and unintended secret
sovereign immunity. Thus the absolute need for
review and/or Reversal and Remand, back to the
Magistrate Judge16 originally assigned for Discovery
and Recommendation and Report.

CONCLUSION
For the aforesaid reasons this Honorable Court
should Grant this Petition for Writ of Certiorari, in
the interest of Supreme Court Precedent, proper
enforcement of Statue, common law and the Public
Interest, the Rule of Law, Justice and Remedy.
Respectfully Submitted
/S/
Brian Burke, Petitioner Pro Se

APPENDIX
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 29th day of March,
two thousand nineteen.
Brian Burke, Plaintiff - Appellant, v. New York City
Transit Authority, Kristen M Nolan, Esq., NYCTA,
16 Magistrate Judge Lois Bloom.

15

15
Post Leonard Akselrod, NYP Holdings, Inc., DBA
New York, Kathianne Boniello, Defendants Appellees, John/Jane Doe, et al, Defendant.
ORDER Docket No: 18-1753 Appellant, Brian Burke,
filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc. IT
IS HEREBY ORDERED that the petition is denied.
FOR THE COURT: Catherine O'Hagan Wolfe /s/,
Clerk Case 18-1753, Document 82, 03/29/2019,
2528718, Pagel of 1 18-1753-cv Burke v. New York
City Transit Auth. et al. UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT
SUMMARY ORDER RULINGS BY SUMMARY
ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR
AFTER JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”). A
PARTY CITING TO A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL. At a stated term of
the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of New
York, on the 12th day of February, two thousand
nineteen. PRESENT: RAYMOND J. LOHIER, JR.,

16

16
SUSAN L. CARNEY, RICHARD J. SULLIVAN,
Circuit Judges. . No. 18-1753-cv
BRIAN BURKE, Plaintiff-Appellant, v. NEW
YORK CITY TRANSIT AUTHORITY; KRISTEN
M. NOLAN, ESQ., NYCTA; LEONARD
AKSELROD; NYP HOLDINGS, INC., DBA NEW
YORK POST; KATHIANNE BONIELLO,
Defendants-Appellees, JOHN/JANE DOE ET
AL.,Defendants. MANDATE ISSUED ON
04/05/2019
FOR PLAINTIFF-APPELLANT: BRIAN BURKE,
pro se, New York, NY. FOR
DEFENDANTS-APPELLEES Daniel Chiu, NEW
YORK CITY TRANSIT AUTHORITY, KRISTEN
M. NOLAN, NY and LEONARD AKSELROD: FOR
DEFENDANTS-APPELLEES KATHIANNE
BONIELLO and NYP Holdings, Inc., DBA NEW
YORK POST,GEOFFREY S. BROUNELL (Robert
Balin, on the brief), Davis Wright Tremaine LLP,
New Appeal from a judgment of the United States
District Court for the Eastern District of New York
(Eric N. Vitaliano, Judge). UPON DUE
CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment
of the District Court is AFFIRMED. Appellant
Brian Burke, pro se, sued his former employer, the
New York City Transit Authority (NYCTA), and
several of its employees under various federal and
state statutes and state common law. He alleged
that NYCTA officials orchestrated a harassment
campaign against him for being a “whistleblower”
and that the New York Post and one of its
reporters (collectively, the “Post Defendants”)

17

17
published a defamatory article about his lawsuit
against NYCTA. The District Court (Vitaliano, J.)
dismissed Burke’s complaint for failure to state a
claim but allowed him to amend his complaint with
respect 1 to his discrimination and retaliation
claims. Burke filed a second amended complaint,
which the District Court also dismissed. We
assume the parties’ familiarity with the underlying
facts and the record of prior proceedings, to which
we refer only as necessary to explain our decision to
affirm. We review de novo a district court’s
dismissal of a complaint pursuant to Rule 12(b)(6),
accepting all factual allegations as true, drawing
all reasonable inferences in the plaintiffs favor,
and interpreting the pleadings and briefs
submitted by pro se litigants to raise the strongest
arguments that they suggest. See Harris v. Mills,
572 9 F.3d 66, 71-72 (2d Cir. 2009). The complaint
must plead “enough facts to state a claim to relief
that is plausible on its face.”Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). I. Title VII and
ADA Claims A. Disparate Treatment To state a
claim of disparate treatment discrimination under
Title VII of the Civil Rights Act of 1964 (Title VII),
42 U.S.C. § 2000e-2 et seq., or the Americans with
Disabilities Act of 1990 (ADA), 42 U.S.C. § 12101 et
seq., a plaintiff must allege an adverse employment
action that occurred under circumstances giving
rise to an inference of discrimination. See
McDonnell Douglas Corp. v. Green, 411 U.S. 792,
802 (1973); Littlejohn v. City of New York, 795 1
F.3d 297, 311 (2d Cir. 2015). To state an ADA
claim, the plaintiff must also show that he is
disabled within the meaning of the ADA. Sista v.
CDC Ixis N. Am., Inc., 445 F.3d 161, 169 (2d Cir.

18

18
2006). Burke alleged that he wears eyeglasses as
an accommodation for his myopia and photophobia.
The District Court properly dismissed Burke’s
disparate treatment claims arising from events in
April 2014 because he failed to allege any resulting
adverse employment action. See Vega v. Hempstead
Union Free Sch. Dist., 801 F.3d 72, 85 (2d Cir.
2015). In particular, although Burke alleged that
defendants Kristen Nolan and Leonard Akselrod
ordered NYCTA supervisors to harass him over a
two-day period, he failed to allege that he was ever
disciplined or had his job responsibilities or
benefits reduced because of his disability. See
Galabya v. N.Y.C. Bd. of Educ., 202 F.3d 636, 640
(2d Cir. 12 2000). Nor did Burke adequately allege
that any harassment he suffered due to his religion
constituted more than “mere inconveniences or
annoyances,” see Vega, 801 14 F.3d at 89, or
materially altered the terms and conditions of his
employment, see Galabya, 202 F.3d at 640. B.
Hostile Work Environment Assuming without
deciding that a hostile work environment claim is
cognizable under the ADA, we do not view Burke’s
complaint, even when read liberally, as adequately
alleging such a claim 1 arising from the same
events in April 2014.1 See Abbas v. Dixon, 480 F.3d
636, 639 (2d Cir. 2007). In any event, because an
ADA hostile work environment claim would also
require that Burke show that the treatment he
received was “sufficiently severe or pervasive to
alter the conditions of his employment,” Dollinger
v. N.Y. State Ins. Fund, 726 F. App’x 828, 831 (2d
Cir. 2018) (quoting Tolbert v. Smith, 790 F.3d 427,
439 (2d Cir. 2015)), the claim would fail for the
same reasons as his Title VII harassment claim. C.

19

19
Retaliation We conclude that the District Court
properly dismissed Burke’s Title VII retaliation
claims, which require “a causal relationship
between [a] protected activity and the adverse
employment action.” Hicks u. Baines, 593 F.3d 159,
166 (2d Cir. 2010). Burke argues that there was
sufficient temporal proximity between the filing of
his original federal complaint in March 2015 and
his May 2016 termination. We agree with the
District Court that the year-long lapse is too long to
show causation under the circumstances. See
Hollander v. Am. Cyanamid Co., 895 F.2d 80, 8586 (2d Cir. 1990). See Dollinger v. N.Y. State Ins.
Fund, 726 F. App’x 828, 831 (2d Cir. 2018). Burke
alternatively argues that he was constructively
discharged in April 2015, only weeks after filing his
lawsuit. We do not consider this argument because
he first raised it on appeal. See Virgilio v. City of
New York, 407 F.3d 105, 116 (2d Cir. 2005). Burke
also alleges that the NYCTA 1 stole over $30,000
from him as retaliation for filing the instance case.
But Burke provides no other facts—such as when
the money was earned or when it went missing—
supporting this “naked assertion” of retaliation.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). II.
Defamation The District Court also properly
dismissed Burke’s defamation claims against the
Post Defendants. In New York, “[a] civil action
cannot be maintained against any person, firm or
corporation, for the publication of a fair and true
report of any judicial proceeding, ... or for any
heading of the report which is a fair and true
headnote of the statement published.” N.Y. CIVIL
RIGHTS LAW § 74. “For a report to be
characterized as ‘fair and true’ within the meaning

20

20
of the statute, thus immunizing its publisher from
a civil suit sounding in libel, it is enough that the
substance of the article be substantially accurate.”
Holy Spirit Ass’n for Unification of World
Christianity v. N.Y. Times Co., 49 N.Y.2d 63, 67
(1979); see Shulman v. Hunderfund, 12 N.Y.3d 143,
150 (2009). And statements that are “pure opinion”
are protected by the First Amendment and are not
actionable as defamation. Steinhilber v. Alphonse,
68 N.Y.2d 283, 289 17 (1986). We conclude that the
Post article is not defamatory substantially for the
reasons set forth in the District Court’s
memorandum and order of September 23, 2016. III.
Fair Labor Standards Act. Burke argues that the
District Court ignored his claim under the Fair
Labor Standards Act (FLSA). But as Burke
acknowledged at oral argument, Burke did not
make that claim until his second amended
complaint, which the District Court allowed
only for purposes of repleading his discrimination
and retaliation claims. Accordingly, the District
Court did not err in declining to consider this
claim. Moreover, even if we were to consider
Burke’s FLSA claim, see Abbas, 480 F.3d at 639,
the claim would still fail. Burke alleged that the
NYCTA owes him money pursuant to an
employment contract, that he was not paid for 10
hours of overtime that he worked, and that he was
not properly compensated for sick time and
vacation days. Given that Burke did not allege “a
single workweek in which [he] worked at least 40
hours and also worked uncompensated time in
excess of 40 hours,” his claims in this regard are
insufficient. See Lundy v. Catholic Health Sys. of
Long Island Inc., 711 F.3d 106, 114 14 (2d Cir.

21

21
2013); see also Nakahata u. New York-Presbyterian
Healthcare Sys., 723 F.3d 15 192, 201 (2d Cir.
2013). We have considered Burke’s remaining
arguments and conclude that they are without
merit. For the foregoing reasons, the judgment of
the District Court is AFFIRMED. FOR THE
COURT: Catherine O’Hagan Wolfe /s/, Clerk of
Court FILED IN CLERK'S OFFICE UNITED
STATES DISTRICT COUR, EASTERN DISTRICT
OF NEW YORK, BROOKLYN OFFICE
JUDGMENT I5-CV-I48I (ENV) BRIAN BURKE,
Plaintiff, V. NEW YORK CITY TRANSIT
AUTHORITY, et al. Defendants. A Memorandum
and Order of Honorable Eric N. Vitaliano, United
States District Judge, having been filed on May
18th, 2018, granting the motion to dismiss;
dismissing all federal claims in their entirety with
prejudice; declining to exercise supplemental
jurisdiction, pursuant to 28 U.S.C. § 1367(c)(3),
over any remaining state law claims; certifying
pursuant to 28 U.S.C. § 1915(a), that any appeal
would not be taken in good faith; and denying in
forma pauperis status for the purpose of any
appeal. See Coppedge u. United States, 369 U.S.
438 (1962); it is ORDERED and ADJUDGED that
the motion to dismiss is granted; that all federal
claims are dismissed in their entirety with
prejudice; that pursuant to 28 U.S.C. § 1367(c)(3),
the Court declines to exercise supplemental
jurisdiction over any remaining state law claims;
that 28 U.S.C. § 1915(a), any appeal would not be
taken in good faith; and that in forma pauperis
status is denied for the purpose of any appeal. See
Coppedge v. United States, 369 U.S. 438 (1962).
Dated: Brooklyn, NY Douglas C. Palmer May

22

22

21,2018 Clerk of Court By: /s/ Jalitza Poveda
Deputy Clerk Case l:15-cv-01481-ENV-LB
Document 49 Filed 05/21/18 Page 1 of 1 Page ID #:
972 UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK BRIAN
BURKE, Plaintiff, -against- NEW YORK CITY
TRANSIT AUTHORITY, et al. Defendants. 1 8
2018 * A MEMORANDUM & ORDER 15-CV-1481
(ENV) (LB) VITALIANO, D.J. On March 20, 2015,
Brian Burke, proceeding pro se, commenced this
action against his then-employer, the New York
City Transit Authority ("NYCTA"), for various
alleged federal and state violations of his rights.
Plaintiff amended his complaint, adding new
causes of action and defendants, including NYCTA
employees Kristen Nolan and Leonard Akselrod.
The Court dismissed the amended complaint and
granted leave to file a second amended complaint,
but only with respect to his discrimination and
retaliation claims. The ground of leave excluded
claims that were time-barred or were otherwise
precluded by the Court's Memorandum & Order.
See Memorandum & Order, dated September
21,2016, ECF No. 28. On October 24,2016, plaintiff
filed his second amended complaint, alleging
substantially the same facts and claims as his prior
complaint. See Second Amended Complaint
("SAC"), ECF No. 31. For the reasons that follow,
the motion to dismiss is granted. Discussion The
background facts, procedural history, and the
applicable standard of review are set out in the
Court's order dismissing the amended complaint
and will not be repeated here needlessly.
Familiarity of the parties with that decision is
presumed. Case l:15-cv-01481-ENV-LB Document

23

23
48 Filed 05/18/18 Page 1 of 5 Page ID #: 966 Front
and center on this motion is the question of
whether Burke's second amended complaint
adequately pleads a claim of discrimination and/or
retaliation. Even with the liberal reading of his
papers due a pro se pleader, plaintiff must still
allege "enough facts to state a claim to relief that is
plausible on its face." Bell Atl Corp. v. Twombly,
550 U.S. 544, 570,12 S. Ct. 1955, 1974, 167 L. Ed.
2d 929 (2007). A complaint that "offers labels and
conclusions" or "tenders naked assertion[s] devoid
of factual enhancement" is insufficient. Ashcroft v.
Iqbal, 556 U.S. 662, 678,129 S. Ct 1937,1949, 173
L. Ed. 2d 868 (2009) (citation and internal
quotations omitted). The additional allegations
included in the second amended complaint do
nothing to remedy the defects the Court diagnosed
in dismissing the substantially-similar amended
complaint. As explained in the Memorandum &
Order, Burke had failed to plausibly allege in his
amended complaint that the purported
mistreatment he says he endured at NYCTA was
motivated by a discriminatory or retaliatory
purpose. Absent such pleadings, a prima facie case
of discrimination or retaliation simply cannot
survive dismissal.' See Memorandum & Order at'
As outlined in the Court's previous decision: To
establish a prima facie case of discrimination.
Burke must show that: (1) he is a member of a
protected class, (2) he was qualified for the position
he had or sought, (3) he suffered an adverse
employment action, and (4) he can carry his
minimal burden of showing facts reasonably
suggesting an inference of discriminatory
motivation....[ T]o establish a prima facie case of

24

24
retaliation, a plaintiff must show: "(1) participation
in a protected activity; (2) that the defendant [s]
knew of the protected activity; (3) an adverse
employment action; and (4) a causal connection
between the protected activity and the adverse
employment action." Memorandum & Order at 6
(quoting Hicks v. Baines, 593 F.3d 159, 164 (2d Cir.
2010) (citation and internal quotations omitted);
Littlejohn v. City of New York, 795 F.3d 297, 311
(2d Cir. 2015)). Case l:15-cv-01481-ENV-LB
Document 48 Filed 05/18/18 Page 2 of 5 Page ID #:
967 5-8. As with his prior attempts, Burke has not
pleaded any facts that would give rise to an
inference of discriminatory motive, nor is it clear
under what protected group Burke claims cover.A
See Henry v. NYC Health & Hasp. Corp.A 18 F.
Supp. 3d 396,410 (S.D.N.Y. 2014) ("[T]he
discrimination must be because of [a protected
characteristic]" to survive dismissal.) (quoting
Patane v. Clarke 508 F.3d 106, 112 (2d Cir. 2007)).
Likewise, with respect to his retaliation claim,
Burke has still not adequately offered a nexus
between the mistreatment he claims to have
suffered and his self-described whistleblowing
activities against NYCTA, which he purports is the
cause. See Henry, 18 F. Supp. 3d at 412 (dismissing
retaliation claim providing only conclusory
assertions of retaliatory nexus). Burke, in short,
provides conclusions but no facts. As defendants
note, in his new paragraphs, plaintiff mainly lists
additional details of mistreatment, such as the
alleged withholding of owed compensation and
benefits and the ultimate termination of his
probationary employment (more than a year after
he filed this action). See SAC at HH 86-92; Def. Br.

£
25

25
at 5, 7. The pleading supposedly connecting bad
effects to cause remains unchanged. The new
allegations do not touch on Burke's discrimination
claim, and, as a consequence, do nothing to rectify
identified pleading deficiencies. Focusing on the
retaliation claim, the amended segment of the
second amended The second amended complaint
states that Nolan and Akselrod "used their own
definition of disability under ADA," presumably
meaning Burke's visual impairment (he wears
corrective lenses), as "pretext...to terrorize a
whistleblowing enemy while performing his safety
sensitive training." Allegedly, Nolan and Akselrod
"ordered at least 5 Train Service Supervisors (TSS)
to terrorize, harass, 'interfere with safe train
operation,' assault and create the penultimate
'hostile workplace environment' within the small
confines of an operating cab while train was in
motion with up to 2,000 passengers." SAC at 46-47.
Case l:15-cv-01481-ENV-LB Document 48 Filed
05/18/18 Page 3 of 5 Page ID #: 968 complaint
provides that "[o]ver 30 thousand dollars of
earnings stolen from Petitioner as Retaliation for
FILING THE INSTANT CASE!!! 11," SAC at K 88,
but does not present facts explaining how sick and
vacation days accumulated during a period in
which Burke was not attending work, how the
compensation was calculated to amount to over
$30,000, or, most importantly, how this
withholding was driven by a retaliatory motive. To
the extent that plaintiff purports that the
termination of his probationary employment is an
adverse employment action for purposes of
establishing a retaliation claim, the termination
occurred on May 5,2016, more than a year after

26

26
Burke filed this action and longer still since the
alleged whistleblower activity. See Clark Cty. Sch.
Dist. v. Breeden, 532 U.S. 268, 273, 121 S. Ct. 1508,
1511, 149 L. Ed. 2d 509 (2001) (finding that
"temporal proximity" between employer's
knowledge of protected activity and adverse
employment action must be "very close" for an
inference of causality); Hollander v. Am. Cyanamid
Co., 895 F.2d 80, 86 (2d Cir. 1990) (holding that a
three-and-half months lapse between complaint
and adverse action did not establish causal nexus).
Nonetheless, Burke does not plead any facts to
suggest a link between a protected activity and his
termination. The second amended complaint added
no allegations indicating that Burke’s selfdescribed whistleblowing influenced any action to
terminate him. At the bottom line, given the
persistence of these pleading deficiencies, Burke's
discrimination and retaliation claims are dismissed
without leave to amend. Conclusion In line with the
foregoing, the motion to dismiss is granted.
Plaintiff was previously In its October 24, 2016
Memorandum & Order, the Court found a separate
and additional ground for dismissal of the
retaliation claim: plaintiff had not alleged any
adverse employment action. The Court noted that
withheld paychecks and the rudeness of colleagues
did not constitute adverse employment action and
Burke had not been demoted at that time. Case
l:15-cv-01481-ENV-LB Document 48 Filed 05/18/18
Page 4 of 5 PagelD #: 969 granted leave to file a
second amended complaint for the limited purpose
of plausibly repleading his claims based on
discrimination and retaliation. He has failed to do
so. Given the futility of amendments, all federal

27

27
claims are dismissed in their entirety with
prejudice. The Court declines to exercise
supplemental jurisdiction, pursuant to 28 U.S.C. §
1367(c)(3), over any remaining state law claims.
Although plaintiff paid the filing fee to commence
this action, the Court certifies, pursuant to 28
U.S.C. § 1915(a)(3), that any appeal from this order
would not be taken in good faith and therefore, in
forma pauperis status is denied for purpose of an
appeal. See Coppedge v. United States, 369 U.S.
438,444-45, 82 S. Ct. 917, 920-21, 8 L. Ed. 2d 21
(1962). 'The Clerk of Court is directed to mail a
copy of the Memorandum & Order to plaintiff, to
enter judgment accordingly, and to close this case.
So Ordered.Dated: Brooklyn, New York May 5,
2018 ERIC N. VITALIANO United States District
Judge /s/ USDJ ERIC N. VITALIANO Case l:15-cv01481-ENV-LB Document 48 Filed 05/18/18 Page 5
of 5 PagelD #:

